No. 19-634
INTHE

$)Upreme ~ourt of tbe Winiteb $)tates
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL
AFFAIRS, AND MINISTRY OF THE INTERIOR OF THE
REPUBLIC OF SUDAN,
V.

Petitioners,

JAMES OWENS, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief in Opposition contains 6,258 words and complies with the word limitation
established by Rule 33. l(g)(ii) of the Rules of this Court.
Dated: December 6, 2019

